<html>
<title> - U.S. DEPARTMENT OF JUSTICE COMMUNITY ORIENTED POLICING SERVICES OFFICE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 U.S. DEPARTMENT OF JUSTICE COMMUNITY ORIENTED POLICING SERVICES OFFICE 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

                           Serial No. 112-97

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

73-102 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 








































                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             JARED POLIS, Colorado
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

BOB GOODLATTE, Virginia              ROBERT C. ``BOBBY'' SCOTT, 
DANIEL E. LUNGREN, California        Virginia
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
TED POE, Texas                       HENRY C. ``HANK'' JOHNSON, Jr.,
JASON CHAFFETZ, Utah                   Georgia
TIM GRIFFIN, Arkansas                PEDRO R. PIERLUISI, Puerto Rico
TOM MARINO, Pennsylvania             JUDY CHU, California
TREY GOWDY, South Carolina           TED DEUTCH, Florida
SANDY ADAMS, Florida                 SHEILA JACKSON LEE, Texas
MARK AMODEI, Nevada                  MIKE QUIGLEY, Illinois
                                     JARED POLIS, Colorado

                     Caroline Lynch, Chief Counsel

                     Bobby Vassar, Minority Counsel
























                            C O N T E N T S

                              ----------                              

                           FEBRUARY 29, 2012

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, and Homeland Security........     3
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                               WITNESSES

The Honorable Bernard K. Melekian, Director, Office of Community 
  Oriented Policing Services, U.S. Department of Justice
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable F. James Sensenbrenner, Jr., 
  a Representative in Congress from the State of Wisconsin, and 
  Chairman, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................     2

                                APPENDIX
               Material Submitted for the Hearing Record

Report from the Office of Community Oriented Policing Services 
  (COPS).........................................................    36
Response to Post-Hearing Questions from the Honorable Bernard K. 
  Melekian, Director, Office of Community Oriented Policing 
  Services, U.S. Department of Justice...........................    84


 U.S. DEPARTMENT OF JUSTICE COMMUNITY ORIENTED POLICING SERVICES OFFICE

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                             and Homeland Security,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy 
presiding.
    Present: Representatives Gowdy, Adams, Conyers, Scott, 
Jackson Lee, Pierluisi, Chu, and Polis.
    Staff present: (Majority) Caroline Lynch, Subcommittee 
Chief Counsel; Sheila Schreiber, Counsel; Harold Damelin, 
Counsel; Sarah Allen, Counsel, Arthur Radford Baker, Counsel; 
Lindsay Hamilton, Clerk; (Minority) Aaron Hiller, Counsel, Joe 
Graupenberger, Counsel; and Veronica Eligan, Professional Staff 
Member.
    Mr. Gowdy. Good Morning. This is the Subcommittee on Crime, 
Terrorism, and Homeland Security. Welcome to an oversight 
hearing on the United States Department of Justice Community 
Oriented Policing Services Office. The Subcommittee will come 
to order.
    Welcome to today's oversight hearing. I would like to 
especially thank and welcome Director Melekian. Have I 
pronounced your name correctly? And thank you for joining us 
today.
    I am also joined by my distinguished colleague from 
Virginia, the Ranking Member of the Subcommittee, Mr. Bobby 
Scott.
    I am also joined by the Ranking Member of the full 
Committee, former Chairman of the full Committee, Mr. Conyers, 
from Michigan.
    Mr. Conyers. Top of the morning.
    Mr. Gowdy. Mr. Pierluisi from Puerto Rico. Welcome to all.
    I am going to enter into the record, hopefully without 
objection, the opening statement of Chairman Sensenbrenner.
    [The prepared statement of Mr. Sensenbrenner follows:]
  Prepared Statement of the Honorable F. James Sensenbrenner, Jr., a 
 Representative in Congress from the State of Wisconsin, and Chairman, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Today's hearing examines the grant programs administered by the 
Community Oriented Policing Services Office, known as the COPS Office, 
at the U.S. Department of Justice. Throughout the early 1990s, national 
violent crime rates skyrocketed. In response to this problem, Congress 
established the COPS Program in 1994 and initially funded it with 
nearly $9 billion dollars between 1995 and 2000. DOJ also created the 
COPS Office to distribute and monitor these federal funds.
    The goal of the COPS hiring program was to place 100,000 additional 
police officers engaged in so-called ``community policing'' on the 
streets by the end of 2000. Whether this goal of an additional 100,000 
officers was ever met is a matter of dispute. And, even more 
importantly, there is strong disagreement over whether the COPS hiring 
program has been effective in reducing violent crime.
    Despite spending billions of dollars on the program since its 
inception, the Government Accountability Office has estimated that the 
COPS hiring program is only responsible for a 1.3 percent decline in 
overall crime rates between 1993 and 2000. This is simply not a good 
return on our investment.
    During the mid-2000s, as national crime rates continued to plummet, 
Congress stopped funding the COPS hiring program entirely in 2006 and 
2007 and appropriated just $20 million for the program in 2008. And the 
crime rates continued their decline.
    However, in 2009, as part of the Administration's economic stimulus 
plan, Congress appropriated $1 billion for COPS hiring grants in the 
Recovery Act with virtually no strings attached. Congress waived any 
matching requirement and the COPS Office allowed the funds to be used 
to pay the salaries of existing officers rather than hire new ones. 
This wasn't a crime fighting program--it was a jobs program.
    The bloated funding continues. For Fiscal Years 2010 to 2012, 
Congress appropriated an additional $700 million for COPS hiring 
grants. And now President Obama has requested a staggering $4.25 
BILLION in COPS funds for Fiscal Year 2013. This, despite the fact that 
crime rates are at their lowest in 30 years, despite concerns raised by 
GAO and the Inspector General about the administration of these grants, 
and despite the fact that some recipients are exploiting this program 
to supplant rather than support the hiring of new officers.
    It is clear to me that the purpose of the program has shifted from 
addressing violent crime nationwide to subsidizing state and local law 
enforcement agencies with budget problems. The responsibility to fund 
and manage routine state and local law enforcement efforts has been and 
should remain with the state and local governments.
    This program was intended to address an acute crime problem that no 
longer exists and has now become a program to bail out state and local 
governments that made fiscally irresponsible decisions.
    The City of San Francisco began a program in 2008 that allowed 
police officers to retire at age 55 and then be rehired by the police 
department. Once rehired, these officers were then entitled to 
receive--at the same time--both a full salary, which could be upwards 
of six figures, and retirement payments, which were deposited in a tax-
deferred account that guaranteed a 4% return. Upon leaving the 
department for the second time, the officers received the so-called 
retirement payments that had accrued as a lump sum.
    In many cases, police officers left their second tours of duty with 
lump sums in the mid-six figures. A comptroller's report found that 
this outrageous program is expected to cost the city an additional $52 
million to re-hire retired officers rather than new recruits. And yet, 
the COPS Office awarded San Francisco hiring grants worth over $16 
million in 2009 alone.
    In these difficult economic times, when the federal government must 
drastically reduce its spending, we simply cannot continue to spend 
money without verifying that funds are being used as effectively and 
efficiently as possible, and only for the purpose Congress intends.
    I welcome the Director of the COPS Office, Bernard Melekian and 
look forward to your testimony today.
                               __________

    Mr. Gowdy. And with that, we will recognize the gentleman 
from Virginia for his opening statement.
    Mr. Scott. Thank you, Mr. Chair, and I apologize for my 
voice, but it is actually getting better.
    I would like to welcome Director Melekian in here today to 
discuss the important role of the COPS Office in making us 
safer in this country. The COPS program awards grants to state, 
local, and tribal law enforcement agencies throughout the 
United States, so they can hire and train law enforcement 
officers to participate in community policing, purchase and 
deploy new crime fighting technologies, and develop and test 
new and innovative policing strategies.
    The COPS Office was instituted not only with the goal of 
hiring an additional 100,000 police officers, but also to 
promote community policing. Community policing is a model of 
police work involving a partnership between the police and the 
local residents, which expands the focus of the police from 
arrests, to intervention and prevention problem-solving.
    This is a shift from deploying police officers and patrol 
cars to randomly cruise the streets and to answer calls for 
assistance to deploying them on the street and encouraging them 
to establish ongoing relationships with residents.
    This is often described as returning to a model of cops on 
the beat, which is when officers get to know the residents on 
their beat and thereby better understand the community's crime 
problems and broader needs.
    Of course, the better relationships that police officers 
have with the community, the more likely it is that residents 
will share important information with police, and obviously 
assist in investigations. In this model of policing, officers 
have more discretion and can go beyond making arrests, to 
analyzing problems and responding to them with community 
cooperation. In this way, local law enforcement officers are 
more effective in protecting citizens because they prevent 
crimes from occurring in the first place, save taxpayers money, 
because of all of the associated savings related to 
investigation, prosecution, and incarceration for crimes not 
committed.
    I believe that the COPS program has been a success and a 
model on how smarter, proactive strategies for fighting crime 
are superior to strategies that simply react to crime and cost 
more in terms of victimization and taxpayers' money.
    So, I look forward to the discussion today about how the 
COPS Office is implementing this important program, and ways in 
which we may be able to better strengthen it, and make it even 
more capable of carrying out its important role.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. Thank you, Mr. Scott. I would now recognize the 
gentleman from Michigan, if he would like to take the 
opportunity for an opening statement.
    Mr. Conyers. Thank you, Chairman Gowdy, and Members of the 
Committee. We all join in welcoming Bernard Melekian, the 
Director of Community Oriented Police Services.
    Just two things to add to what Ranking Member Scott has 
already said. The first is that from my point of view, the COPS 
program is one of the most successful ever produced by the 
Judiciary Committee. And I would like to try to show why this 
program is money well spent and what we need to do to reaffirm 
our commitment to providing assistance to local law enforcement 
in this country.
    First of all, the COPS program creates jobs. It started off 
under Clinton. It has funded more than 123,000 state and local 
officers in communities across the country. Now, some 
jurisdictions are actually laying off police officers, but the 
COPS program makes us safer, and I fully support it. And I 
think the case will be made very clearly here this morning.
    In fact, former Attorney General John Ashcroft said, and I 
quote, ``The COPS program has been one of the most successful 
programs that we have ever worked with.''
    Now in addition, yesterday I have introduced H.R. 4098, of 
which the director has been made aware, and called the Shield 
Our Streets Act, to provide specific funding for places that 
have particularly high crime areas, like, for example, Highland 
Park, Michigan, whose lighting systems have been cut off 
because of their financial distress, and the safety issues 
become paramount there.
    And so I welcome you to the Committee again, and we look 
forward to your testimony.
    Thank you, Chairman Gowdy.
    Mr. Gowdy. Thank you, Mr. Conyers.
    It is now my pleasure to introduce today's witness. Mr. 
Bernard Melekian was selected as the Director of the Office of 
Community Oriented Policing Services in October 2009. He has 36 
years of local law enforcement experience, including serving as 
the chief of police for the City of Pasadena for 13 years. He 
also served with the Santa Monica Police Department for 23 
years, where he was awarded the Medal of Valor in 1978 and the 
Medal of Courage in 1980.
    Mr. Melekian served in the United States Army from 1967 to 
1970. As a member of the United States Coast Guard Reserve, he 
was called to active duty in 1991, during Operation Desert 
Storm, and served in Saudi Arabia. Director Melekian served a 
second tour of active duty in 2003, when he served for 8 months 
in the Pacific. He retired from the Coast Guard Reserves in 
2009, after 26 years of service.
    Director Melekian holds a bachelor's degree in American 
history and a master's degree in public administration, both 
from California State University North Ridge. He is a graduate 
of the 150th session of the FBI National Academy, and the 20th 
class of the California Command College.
    Director Melekian's written statement will be entered into 
the record in its entirety.
    I would ask that you summarize your testimony, to the 
extent you can, in 5 minutes or less. To help you stay within 
the time parameters there is a lighting system, which you are 
probably familiar with. The colors mean the same thing they 
mean in everyday life. Green means go, yellow means speed up, 
and hope there is not a police officer around, and red means 
stop.
    I now recognize Director Melekian. And welcome.

   TESTIMONY OF THE HONORABLE BERNARD K. MELEKIAN, DIRECTOR, 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES, U.S. DEPARTMENT 
                           OF JUSTICE

    Mr. Melekian. Good Morning, Mr. Chairman, and Ranking 
Member Scott, and distinguished Members of the Committee.
    Thank you for the opportunity today to discuss the Office 
of Community Oriented Policing Services, or COPS. I would like 
to discuss with you our fiscal year 2013 budget request, our 
management and oversight of valuable Federal resources, the 
impact of the current economy on local law enforcement, and why 
the COPS Office is just as important today as when it was 
founded.
    The mission of the COPS Office is to advance public safety 
through community policing. Community policing is best defined 
as building partnerships to solve community problems. The 
community policing philosophy has served as the foundation for 
successful law enforcement practices from Houston, Texas, where 
police officers mentor at-risk youth, to Allentown, 
Pennsylvania, where community policing officers will be hired 
to focus on campus rape reduction, to Racine, Wisconsin, where 
officers buy homes in high crime neighborhoods, use those homes 
as substations to reduce crime, and ultimately resell the homes 
to needy families.
    Community policing in both practice and philosophy is an 
effective solution to addressing public safety. Findings from 
the 2005 GAO report demonstrated that COPS funds increase 
community policing capacity, and were a contributing factor to 
the reduction of crime in the 1990's.
    I would like briefly to discuss the President's budget 
request for the COPS Office, and our oversight and 
accountability measures regarding taxpayer dollars appropriated 
to us.
    The budget requests approximately $290 million for the COPS 
Office, including $257 million for hiring programs. These funds 
will be focused on hiring military veterans as law enforcement 
officers, providing an opportunity to support those who are 
returning home from their tours of active duty.
    We are committed to operating our office in the most 
efficient way possible, while continuing to advance public 
safety. We have made it a top priority to minimize our 
operational costs. In 2011, we transferred our IT 
infrastructure to a consolidated DOJ system, saving 
approximately $5 million over the next 5 years. We have also 
curbed expenditures on supplies, materials, travel, training, 
awards, and overtime.
    In light of the recent OIG findings on conferences, we 
issued new instructions to grantees, and have trained our staff 
on the new guidelines. As always, we seek to minimize 
conference costs, and avoid either the fact or the appearance 
of extravagant spending.
    We also collaborate closely with the Office of Audit, 
Assessment and Management to improve operating efficiency and 
effectiveness. Since fiscal year 2007, we have recovered nearly 
$4.7 million through the resolution of audits.
    The COPS Office also closely monitors trends occurring in 
law enforcement, and we have found that the loss of capacity 
due to the economy is shocking. As shown in a report published 
by our office, approximately 10,000 law enforcement positions 
have been lost through layoffs, and local hiring freezes will 
leave an additional 30,000 positions unfilled.
    It is highly likely that the numbers that I am quoting to 
you are low. In Camden, New Jersey, the city with one of the 
highest crime rates in the country, nearly 50 percent of its 
police department was laid off.
    There are scores of other examples highlighted in this 
report. I would ask your consent to include a copy in the 
record of my testimony.
    American law enforcement is changing, and I believe the 
next few years will be a period of significant innovation. 
Moving forward, the challenge will be to balance the public's 
expectations and demands on police with the department's fiscal 
capacity to perform its core mission.
    Changes are likely to occur in four areas: Greater use of 
civilians as both employees and volunteers, greater use of 
technology, alternative delivery of non-emergency services, and 
consolidation and regionalization.
    Because of the history of our office, we have come to be 
seen in some circles as only providing funds for hiring. That 
is not and never has been our sole objective. We also provide a 
broad range of robust technical assistance resources. We have 
disseminated over 6 million training products and publications, 
and have trained nearly 700,000 policing professionals and 
community leaders.
    We are partnering with the Bureau of Justice Assistance on 
the Officer Safety and Wellness Group, which brings together 
law enforcement leaders and criminal justice practitioners to 
share their broad perspectives in this area.
    COPS is making an impact at the local level. For example, 
in Las Vegas, we are coordinating with the Civil Rights 
Division to help develop a response to address community 
concerns.
    I want this office to become known as supporting innovation 
as much as it is for hiring police officers.
    Thank you for this opportunity to testify, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Melekian follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Gowdy. Thank you, Dr. Melekian.
    I would now like to recognize the gentleman from Virginia 
for his questioning.
    Mr. Scott. Thank you. Mr. Melekian, how do you guarantee 
that the localities that need it most are more likely to get 
funds? How do you guarantee that the localities that need the 
money the most get the funds?
    Mr. Melekian. The challenge for the office this year, and 
actually for the last several years, has been, as I mentioned 
previously, the impact of the economy has had devastating 
results on local economy.
    We use an evaluative system in our application process, 
focusing on the fiscal health of the agencies, the crime rate 
of the agencies, as well as the community policing plans, both 
in terms of history and in terms of what they propose to do. 
The harsh reality is that our funding, since 2009, has funded 
roughly 14 percent, 8 percent, and 10 percent of the 
applicants. In other words, 90 percent of those people who 
apply simply don't get funded. My guess is that the need on the 
next block of applicants, if we went straight down the list, 
would be every bit as significant as those who got funded.
    But we really focus on fiscal health and crime rate in an 
effort to see that we can provide the greatest assistance 
possible. One of the goals is to make sure that we maximize the 
impact of those Federal dollars, given their limited 
availability.
    Mr. Scott. Thank you. Could you say a word about what you 
are doing for veterans?
    Mr. Melekian. Yes. In the 2012 hiring program, we are 
placing great emphasis on those men and women who have served 
at least 180 days of active duty since 9/11 of 2001.
    The first priority for any agency that is hiring new 
officers, that is, not re-hiring someone who has lost their 
job, will be focused on those returning veterans, with an idea 
particularly toward catching those folks from Afghanistan and 
Iraq.
    Mr. Scott. Can you say a word about how community policing 
helps solve crimes?
    Mr. Melekian. Absolutely. I think, you know, sort of the 
image of community policing in some cases is that it is simply 
a feel-good program to build a relationship between the police 
and the community.
    I came to a community that was experiencing 20 to 25 
homicides a year, and had done so for a long period of time. 
Through a lot of community policing efforts, through support 
from the COPS Office, through support from other Federal 
agencies, we actually had 30 months of zero homicides. And we 
never went back to double digits for, I think, 7 or 8 years.
    The very definition of community policing, of building 
relationships and solving problems, suggests that if the 
officers on the beat know the people who live there, they are 
much more likely to be able to obtain information and solve 
crimes.
    I think one of the best indicators, for example, of a 
successful community policing program is any agency that has a 
high rate of homicide clearances, where those clearances are 
the result of investigation. It suggests that both the patrol 
officers and the detectives have solid relationships in the 
community to help them solve that crime.
    Mr. Scott. And finally, do you coordinate grants with other 
DOJ programs?
    Mr. Melekian. We absolutely do. We work very closely both 
with the Office of Justice Programs, particularly the Bureau of 
Justice Assistance and the Office on Violence Against Women.
    We are focused on making sure that we are not making awards 
to the same grantees, that we are coordinating the purposes of 
our grants. We recently began participating in the Coordinated 
Tribal Assistance effort that is designed to streamline the 
grant-making process for tribal police agencies.
    We participate in and currently chair the High-Risk Grantee 
Working Group, with an idea toward ensuring maximum efficiency 
of all of DOJ's grant funds.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair will now recognize the gentlelady from Florida, 
who had a very distinguished career in law enforcement herself. 
Mrs. Adams?
    Mrs. Adams. Thank you, Mr. Chair.
    You know, in the past, you have commented about how hard it 
was to measure the effectiveness of the COPS program, you know, 
the hiring program and all of that. What have done since being 
in charge of the COPS programs to be able to measure the 
outcomes and how it is working, the hiring programs?
    Mr. Melekian. One of the most fundamental changes that we 
have made in the COPS hiring process is to really sort of shift 
the focus from the output measure, that is how many officers 
did we hire, and begin to measure what did those officers 
actually accomplish in the neighborhoods and communities where 
they went.
    To that end, in 2011, was the first time that grantees were 
required to identify specific community problems that they 
intended to address. And as part of our oversight and 
monitoring efforts, we will be reviewing: (a) what they said 
they were going to do to address the problem; and (b) what they 
have actually done to make sure that those two are in 
alignment.
    In 2011, we allowed them to identify three community 
problems. In 2012, we have actually focused that down to one 
community problem with an eye, again, that we are not going to 
solve their local budget problem, but what we can do is help to 
solve a local policing problem.
    Mrs. Adams. The COPS Office was established as separate 
from DOJ's two other major grant-making components, the OVW and 
OJP. And the DOJ IG has reported areas where the distinctions 
have kind of caused some overlap and duplication in the grant 
and administration. So, in what ways might consolidation of 
these offices, particularly with regard to sharing systems, 
procedures, and other administrative processes, yield greater 
grant oversight and coordination to reduce cost?
    Mr. Melekian. We are very conscious of making sure that we 
are proper stewards of the Federal dollar, of the taxpayer 
dollar. We view that as one of our core missions. We look very 
closely, and I mentioned earlier some of the joint grant 
working groups that we have to make sure that we are not sort 
of blurring the line on that. That same report mentions that we 
share a number of administrative systems with OJP. We have done 
that for a number of years, again, in the pursuit of greater 
efficiency, rather than standing alone.
    Our greatest strength, I think, comes from the fact that we 
are focused directly with the local law enforcement agency, we 
deal directly with the local law enforcement agency, and our 
mission to that end is unique within the Justice grant-making 
components.
    Mrs. Adams. How many people, including both DOJ employees 
and contractors, currently work in the COPS Office? Like, how 
many grant managers are responsible for COPS getting the 
grants?
    Mr. Melekian. If I understood the question, we currently 
have 129 employees, Federal employees in the office. The hiring 
freeze that has been in place since, for about----
    Mrs. Adams. And they work in both?
    Mr. Melekian. Pardon me?
    Mrs. Adams. They are both DOJ and contractors that work 
in----
    Mr. Melekian. And I was going to say, and 70 contractors, 
so a total of 209 persons.
    Mrs. Adams. How many active grants does the COPS Office 
currently manage?
    Mr. Melekian. A little over 4,000.
    Mrs. Adams. What is the average number of active grants 
assigned to a grant manager?
    Mr. Melekian. Roughly, 400.
    Mrs. Adams. In 2009, DOJ Inspector General advised your 
office of the potential overlap in purposes between the Byrne 
JAG grants and the COPS hiring grants. Isn't it correct that a 
Byrne JAG grant can be used for essentially any purpose allowed 
by a COPS hiring grant?
    Mr. Melekian. In theory, that is true. We have very little 
evidence to indicate that that has happened. One of the things 
that is distinctive about Byrne JAG is that it is generally a 
block grant, whereas, again, the COPS grant goes directly to 
the agency in question for a very specific purpose. 
Additionally, our grants are for 3 years, and the grantee is 
required to maintain that grant, at local expense, for an 
additional 12 months. Byrne JAG doesn't carry that requirement.
    Mrs. Adams. Have you gone back to look at, over the years, 
these COPS hiring programs, how many police officers are still 
there that were hired under these programs, and how long of a 
tenure have they had?
    Mr. Melekian. We have tried to look into that, and I can 
try to get back to you on that. I don't have that number off 
the top of my head. I can tell you, from a lot of years as a 
police chief, that those positions were absorbed into the local 
budget after the grant expired.
    Mrs. Adams. And wouldn't it be fair to say that, although, 
I agree that having more police officers is better than not 
having enough, because I was one of them that called for help 
from time to time, but also, I believe, it is the laws on the 
books that keep the bad people behind the bars for the duration 
of the time they should be behind the bars. That is a big help 
for law enforcement, wouldn't you agree?
    Mr. Melekian. I certainly agree that that is a significant 
factor. One of the focuses that we made when we were dealing 
with the violence reduction program I talked about was to 
identify the worst offenders, and make sure that our 
enforcement efforts were focused at them, rather than sort of 
at the community as a whole.
    Mr. Gowdy. I thank the gentlelady from Florida.
    The Chair will now recognize the gentleman from Michigan, 
Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. I appreciate your 
testimony, Director Melekian.
    Let's turn to the Detroit police situation with me, would 
you? They have had to restructure, and there is a struggle to 
preserve maybe as much as 100 jobs in the police department. 
Because of, I think, your program's existing grants, we were 
able to preserve about 75 of those jobs, and I was wondering if 
you happen to have enough information to discuss this 
particular situation with me this morning?
    Mr. Melekian. I do, and at least to some degree, and if it 
exceeds my capacity sitting here in front of you this morning, 
I will make sure that we get whatever information you require. 
The challenge that Detroit is facing is playing out all over 
this country. There are agencies, large and small, that are 
laying off, losing positions, and struggling to figure out how 
do they deliver police services in this economically challenged 
environment.
    Mr. Conyers. Have you or any of your people had any contact 
with Police Chief of Detroit Ralph Godbee?
    Mr. Melekian. Yes. I have spoken personally with Godbee on 
several occasions, and he is a very active participant in the 
national planning efforts that take place here in Washington 
under the COPS umbrella.
    Mr. Conyers. Is there any description you can give me of 
what the state of affairs and your organization's relationship 
to the Detroit police department are currently?
    Mr. Melekian. I would describe the relationship with Chief 
Godbee and with the members of his staff as extremely positive. 
I know that he is struggling in a very creative fashion. He has 
obviously got significant criminal justice issues to face. The 
department is stretched in a number of ways, and the COPS 
Office is striving to help the Detroit police department in the 
ways that we are striving to help agencies all over the 
country.
    Mr. Conyers. Well, it is my understanding that you have 
already helped us preserve roughly 75 Detroit police officers' 
positions.
    Mr. Melekian. Correct.
    Mr. Conyers. Is that correct?
    Mr. Melekian. It is, sir.
    Mr. Conyers. Can we stay in touch, if not with you, with 
somebody on your staff about this as we go along, because there 
is no better way I can be of help to them than by working with 
your organization to see that this gets balanced out. I am 
going to be talking with him either today or tomorrow.
    Mr. Melekian. Absolutely.
    Mr. Conyers. Now, finally, since this is the authorizing 
Subcommittee, and a part of the full Committee that deals with 
this COPS program, what friendly advice would you give us as to 
something you would like to see done differently, added, or 
deleted, as we move forward with the legislative end of this 
program?
    Mr. Melekian. Probably is a longer answer than the clock 
may permit, but I would hope that the Committee does review the 
report that I made reference to, and really grasp what is 
happening to local agencies, large and small, across the 
country. I have never seen this loss of capacity. The things 
that I can describe, you know, from my tenure as a police 
chief, was, quite frankly, in an environment where the economy, 
at worst, in bad years, meant holding static.
    The devastation across the country, there's an NIJ report 
that was issued recently that talked about the need to change 
police business practices. I think we want to work much more 
closely with this Committee on how we can maximize the use of 
Federal dollars in the face of that reality.
    Mr. Conyers. Well, thank you very much.
    Could I get one additional minute, Mr. Chairman?
    Mr. Gowdy. Without objection.
    Mr. Conyers. Thank you.
    Now, without being combative, do you have as good a 
relationship with the Senate side as you do with the House side 
in this program that you lead?
    Mr. Melekian. I believe so.
    Mr. Conyers. Wait a minute. You believe so? Well, that is a 
pretty political response. So, I will see you after the 
hearing.
    Mr. Melekian. Yes, sir.
    Mr. Conyers. Thank you.
    Mr. Gowdy. I thank the gentleman from Michigan.
    Director Melekian, you mentioned, I am going to go off 
script here, which is something I have been advised repeatedly 
not to do, but you mentioned homicide clearance rates as some 
indicator of success. Do you consider a homicide cleared at the 
time a warrant is signed, at the time the true bill is handed 
down, or at the time you go to court and there is actually a 
resolution of the case?
    Mr. Melekian. Generally, it is when a suspect has been 
affirmatively identified and enough evidence developed to take 
that person into custody.
    Mr. Gowdy. Even if there is a dismissal or a not guilty?
    Mr. Melekian. If the dismissal is around an issue of, sort 
of, technical deficiencies, either in the warrant or in the 
arrest process, then I think you may have a training problem or 
you may just have an evidentiary reality problem.
    If, on the other hand, it is clear that somehow that 
warrant was issued in error, and that that person was not 
responsible, I would have a different response to that.
    Mr. Gowdy. So, there is a difference between whether you 
have got the right person, and you can't prove it, or you have 
got the wrong person.
    Mr. Melekian. Yes, sir.
    Mr. Gowdy. All right. We had a pretty robust discussion 
yesterday about the over-criminalization, in general, and then 
what some would argue is an over-federalization of crime, in 
general. And I am not going to ask you about that, but I think, 
if I heard you correctly, and I tried to write it down, you 
said, ``I can't solve budgets, but I can solve law enforcement 
issues.''
    Mr. Melekian. Yes, sir.
    Mr. Gowdy. And, first of all, I should have started by 
saying, thank you for your service in law enforcement and to 
our country. I think you are uniquely well positioned to answer 
this question.
    There are localities and states that have had to make some 
pretty dramatic changes in the way that they fund other 
programs, so they can meet what they consider to be the core 
functions of state and local government, which in my judgment 
would be public safety and education. So, are we postponing the 
day of reckoning for those municipalities who are relying on 
Federal funding?
    Mr. Melekian. I don't believe so, and I say that because 
most agencies, especially in this day and age, for example, the 
COPS legislation, the agencies are not permitted to supplant 
their local budgets. And we pay very close attention to that, 
to make sure that that doesn't occur.
    Mr. Gowdy. Have there been instances where you found that 
it did occur?
    Mr. Melekian. Very rarely. Over the last 16 years, I can 
think of a handful of occasions, and those were dealt with. 
But, the fact of the matter is that the agencies are reaching 
out to the Federal Government. And when I first got here, in 
2009, it was very clear that chiefs and sheriffs were 
struggling to figure out what this new economic reality meant. 
I think people have come to terms with that. They recognize 
that neither the COPS Office nor any other Federal agency is 
going to fix the challenges that they have.
    But what they can do, if they are addressing a particular 
problem, whether it is a school security issue, or traffic 
management, or a specific type of crime problem, or whatever 
their local problem is, we have tried to position ourselves to 
where we can help them solve that problem, not necessarily 
solve the totality of what they are doing. And I think in that 
spirit it is unlikely that they are going to become dependent 
on Federal dollars.
    Mr. Gowdy. I am going to read you a quote from someone who 
had a very distinguished career in local law enforcement. Tell 
me if you recognize it. ``The COPS Office and the Federal 
Government have poured billions of dollars into the advancement 
of community policing. I believe as a practitioner that it has 
made a difference,'' ellipsis, ``in quality of life, but if you 
ask me to prove it, I am not sure I could.''
    Do you know who said that?
    Mr. Melekian. I don't, but I don't disagree with it.
    Mr. Gowdy. It is a quote attributed to you.
    Mr. Melekian. Okay. It sounds like something I would say. 
[Laughter.]
    Mr. Gowdy. I am going to allow you to use the lowest 
standard of proof that we have, preponderance. Can you prove it 
now?
    Mr. Melekian. I can prove it in the city that I worked in. 
I can prove it in the sense of talking to individual chiefs and 
sheriffs, as they tell me their stories about what they did. 
And I can sort of prove it in a parable form, when I look back 
at where this profession was 36 years ago when I came into it, 
and where it is today.
    In terms of proving it, when I said that, it was in terms 
of proving it in an academic sense. And it was in the context 
of a program that the COPS Office implemented, called CP-SAT, 
with our 2011 budget, which was our first attempt, as far as I 
know, the first attempt, to really try to measure the impact of 
community policing on grantees. And they are required to do an 
assessment, a self-assessment, that is a community self-
assessment, at the beginning of the grant period, and then 
again at the end of the grant period, which in most cases is 
going to be around 2013, 2014.
    And our hope is that for the first time we will actually 
have an academically rigorous measure. The GAO report in 2005 
suggested that the COPS Office was making a difference, and 
was, in fact, advancing community policing.
    I don't know if I have answered your question.
    Mr. Gowdy. I am out of time, but if Mr. Scott would allow 
me one more question.
    Mr. Scott. Without objection.
    Mr. Gowdy. If you and I were working together and somebody 
were described as high risk, that would send off certain 
signals in our mind. Help me explain to the folks I work for 
back home how high-risk grantees can continue in the program, 
or can apply for additional grants. What does high risk mean to 
you, and do they have a higher burden to overcome when it comes 
to seeking new grants?
    Mr. Melekian. The second part of your question is much 
easier to answer. They do have a higher burden to overcome. It 
means that in some process, and I think the term, the way you 
started out, if you and I are working a radio car together, and 
we say a person is high risk or a neighborhood is high risk, 
that sort of is one context. The idea of a high-risk grantee 
means that through any 1 of 19 identified factors, they have 
demonstrated that they may be challenged with regards to how 
they have implemented the grant.
    And so, the result that I mentioned in my remarks about the 
high-risk grant challenges group, it is a joint DOJ team effort 
between all the DOJ grant-making efforts that look at each 
component's listing of people that are on that list, why they 
are on that list, and we make decisions about who gets 
evaluated, who is going to get a site visit. But, in any event, 
we are paying much closer attention to them than we would a 
grantee who is not on that list.
    Mr. Gowdy. Thank you.
    The Chair will now recognize the gentleman from Puerto 
Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairman. And thank you, Director 
Melekian, for your service and your testimony this morning.
    I will use the bulk of my time to defend the program that 
you administer, and then I will have a couple of specific 
comments and questions.
    As you know, the COPS Office was created as a result of the 
Violent Crime Control and Law Enforcement Act of 1994. I was 
attorney general of Puerto Rico at the time, and I lobbied hard 
for this law. From where I stood, the need for this legislation 
could not have been more evident. In the early 1990's, Puerto 
Rico, like so many other U.S. jurisdictions, was suffering from 
a wave of violent crime. In the 5-year period between 1989 and 
1993, the number of homicides on the island more than doubled, 
from about 460, to over 950. In 1994, there were nearly 1,000 
homicides in Puerto Rico. Indeed, my own family was touched by 
this violence.
    Director, in your testimony you noted that as police chief 
in Pasadena, you had to tell many parents that their child was 
not coming home. For me, as for you, violent crime is not an 
abstract problem. To the contrary, it is profoundly, intensely, 
and undeniably personal. I believe that the most solemn duty of 
our government, whether it be Federal, state or local, is to 
safeguard its citizens. The COPS program is rooted in that 
simple but powerful premise.
    Thus, while this Subcommittee should ensure that the COPS 
Office is effectively performing its mission to advance public 
safety, it should not question the overriding importance of the 
mission itself.
    After the Crime Act was enacted, violent crime in Puerto 
Rico began to fall. Between 1994 and 1999, the number of 
homicides on the island was cut almost in half, to well under 
600. Of course, the programs created by the Crime Act were not 
the only factor behind this reduction in violence, but I do 
believe that they were a major contributing factor. Since the 
program's inception, over $160 million in COPS grants have been 
awarded to law enforcement agencies in Puerto Rico. These 
grants have put more than 3,500 new police officers on Puerto 
Rico streets.
    Nearly every one of our municipalities has benefited from 
the grants. These statistics are heartening, but they do not 
tell the whole story. The number of lives saved, the number of 
crimes prevented, and the number of families spared the pain of 
losing a loved one are beyond calculation.
    However, as you, Director, and the Members of this 
Subcommittee are well aware, violent crime in Puerto Rico, as 
well as in the neighboring U.S. Virgin Islands, has been on the 
rise again since year 2000, even as violent crime nationwide 
has decreased substantially. In fact, the murder rate in both 
Puerto Rico and the USVI is approximately six times the 
national average, and nearly three times higher than any State.
    There are a number of factors that have contributed to this 
spike in violence, but perhaps the most important is 
geopolitics. As the U.S. Government has increased resources 
along the southwest border and provided substantial funding to 
Mexico and Central American nations with the M?rida Initiative, 
drug trafficking organizations have returned to familiar routes 
through the Caribbean to get their products to market. And 
according to some estimates, three-quarters of the murders in 
Puerto Rico and the USVI are linked to the drug trade.
    So, this leads me to a couple of comments and questions. 
First, I appreciate that in determining the grants you are 
providing, that you are taking into account crime rate in the 
jurisdictions involved. That is very important. It has got to 
be need-based. At the same time that you are also taking into 
account the fiscal effort by the proponents or the grantees. 
That is important.
    Now, you mentioned that you not only hire cops, but also 
you provide technical support. So in the little time remaining, 
could you please expand on the kind of technical support you 
could be giving to local jurisdictions, and then also the kind 
of resources you have, how many people you have trained to give 
this technical support, and how you go about it?
    Mr. Melekian. In the life of the COPS Office, we have been 
focused very significantly on the Island of Puerto Rico. Nearly 
$170 million in COPS funding has gone directly to the Island. 
We also participated in the Department of Justice working 
group, which is a subcommittee of a White House working group.
    Mr. Pierluisi. Mr. Chairman, would you give the witness two 
additional minutes just to finish explaining what I asked him 
to do?
    Mr. Gowdy. The witness may finish answering Mr. Pierluisi's 
question.
    Mr. Melekian. Thank you, sir.
    Mr. Pierluisi. Thank you so much.
    Mr. Melekian. We work with the DOJ working group in Puerto 
Rico, which is a subset of the White House working group on the 
Island, and we are working with a number of Federal agencies on 
dealing with the issues that you pointed out.
    We also, through our community policing development, fund a 
number of projects that may well be relevant to the issues that 
you raise, not the least of which is the National Network of 
Safe Communities, out of John Jay College, which right now is 
about 51 jurisdictions that are attempting to sort of share 
information on how they have addressed specific crime problems, 
and what are best practices in policing.
    We also have a separate project that is outsourced, in 
effect, that evaluates the impact of significant policing 
events. And I would be happy to work with your office and your 
staff to see what other programs we have from the COPS Office 
that is directly related to the issues you have raised.
    Mr. Pierluisi. Thank you.
    Mr. Gowdy. I thank the gentleman from Puerto Rico.
    The Chair will now recognize the gentlelady from 
California, Ms. Chu.
    Ms. Chu. Thank you.
    Director Melekian, it is such a pleasure to have you here 
today. I represent the San Gabriel Valley, which is east of Los 
Angeles, in California. Of course, it has Pasadena in it. Your 
dedicated service to the City of Pasadena as the police chief, 
acting fire chief, and acting city manager is well noted. But 
more specifically, your 36 years serving in local law 
enforcement makes you so well suited to your current role. And 
I so, again, appreciate your being here today.
    You are also well known for the No More Dead Children 
initiative. At one point, Pasadena had multiple years of 20 to 
25 homicides per year, however, through the No More Dead 
Children initiative, you reduced this dramatically, and you had 
30 consecutive months of zero homicides.
    Can you take a moment to tell the Committee about that 
initiative, and what help, if any, the COPS Office provided you 
to ensure that the program was a success?
    Mr. Melekian. Yes, I am privileged to do that. That problem 
was one of those seemingly intractable problems that we were 
assured by everyone that knew anything that there was nothing 
that you could do about it. But we sat down and with some 
assistance from the COPS Office, with a commitment from the 
community, with a commitment to community policing in a way 
that ensured that individual officers had relationships with 
individual people in the community, we embarked on a three-
track program of prevention, intervention and enforcement. And 
because of the resources that we had, both locally and with the 
assistance from the Federal Government, we didn't have to do 
what a lot of jurisdictions end up doing. They know that 
prevention is important. They know that intervention is 
important. They know that enforcement is important. But a lot 
of times they end up feeling like they have to make a choice.
    For a whole variety of reasons, we didn't have to make that 
choice. We focused on each of those aspects of dealing with 
that particular problem. The enforcement effort was not ever 
directed at a community as a whole. It was directed at specific 
individuals. The intervention program was highlighted by the 
creation of a first-offender program.
    There is an enormous number of studies that point out that 
if you can deal with kids who get arrested for the first time, 
if you can deal with them in some positive and proactive way, 
you can significantly impact crime with a very quick 
turnaround.
    And the prevention piece, quite frankly, was focused on 
after school programs and on relationships with individual 
officers. Because of the COPS Office funding, and some 
additional resources that we had, because of some assistance 
from other Federal law enforcement agencies, and because of 
partnering with the community and with the school district, we 
did in fact achieve the results that you described. I 
calculated that, you know, over the life of the 10 years after 
we implemented that program, that there was somewhere in the 
neighborhood of 60 to 70 young people, mostly young people of 
color, who had not been killed. You know, it is difficult to 
measure that. It is almost impossible to measure that, but the 
reality is that their lives count, and I think that that 
program and the COPS program helped us do that.
    Ms. Chu. Well, I truly want to commend you on that.
    Switching gears, I want to talk for a moment about officer 
safety, and the issue of gun violence and how it is affecting 
them. It is of particular concern, when, according to the 
National Law Enforcement Officers Memorial Fund, that last year 
for the first time in 14 years, more officers died from 
firearm-related incidents than traffic related incidents. And 
it was 173 officers that lost their lives last year. And the 
number of officers killed by firearms has now risen during each 
of the past 3 years.
    So, how is your office addressing officer deaths, and 
working with local police departments in implementing 
strategies to reverse this?
    Mr. Melekian. The issue of officer safety and officer 
wellness is one of the attorney general's priorities, and to 
that end, the COPS Office and our sister agency, the Bureau of 
Justice Assistance, operate a working group, the Officer Safety 
and Wellness Working Group. We meet with practitioners from the 
field, with academics, and psychologists to really try to get a 
handle on: (a) what the nature of the problem is; and (b) how 
can we look at issues of training and technical assistance, how 
can we do better at teaching tactics to try to address this 
issue. It is a huge issue of concern obviously to me, and 
certainly, it is a huge issue of concern to the attorney 
general.
    Ms. Chu. Thank you. I yield back.
    Mr. Gowdy. I thank the gentlelady from California.
    The Chair will now recognize the gentleman from Colorado, 
Mr. Polis.
    Mr. Polis. Thank you. I assume, as part of your position, 
you track nationally community policing programs. Is that 
correct?
    Mr. Melekian. Yes, sir.
    Mr. Polis. And I wanted to ask specifically about, it is my 
understanding that building the trust of the community is an 
important part of community policing programs. Is that correct?
    Mr. Melekian. Yes.
    Mr. Polis. What impact have you seen from some of the 
state-based efforts that have reduced the trust among our 
immigrant community? Particularly, I would ask you about the 
impact on community policing in Arizona and Alabama.
    Mr. Melekian. One of the realities of community policing is 
that, like everything else to do with policing, it is very 
local. And so while very often the State issues, and 
particularly around some of the immigration issues, certainly 
impact that, the real challenge, the real test is the 
relationship between the individual department and the people 
in the individual community, as to whether or not that sort of 
a broader issue is going to have a negative impact.
    There is no question that those kind of discussions sort of 
percolate right down to the local level, but a great many 
chiefs and sheriffs have spent a lot of energy trying to offset 
that.
    I went to a lot of trouble, as the police chief, for 
example, to make it clear--the city that I was in was over one-
third Hispanic. Concerns about immigration issues were 
significant to them. We made it very clear what the police 
department's policy was and that it wasn't going to change. 
There are a number of ways that this operationalizes itself. 
For example, drivers license checks, those kind of things. I 
think it is a matter, really, of what is local policy and 
what's being done on the local level.
    Mr. Polis. And what about the impact of 287(g) programs 
that empower the very same local officers and/or their 
colleagues, who are trying to establish relationships in the 
community, with the power to initiate deportation proceedings 
and communications with ICE?
    Mr. Melekian. Most of those, at least the ones I am 
familiar with, occur at the county level in custodial settings. 
I know that there are some agencies who have taken that on, you 
know, taken a more proactive role than that. That's not, 
certainly, part of a COPS Office program. It is not anything 
that we're involved with, in terms of our funding. You know, it 
is a hugely significant issue.
    And one of the first trips that I made, when I became the 
COPS director, was to the Southwest border, to meet with the 
Southwest border sheriffs, and take a look at the issues that 
they are dealing with. And each of them is responding to it, 
really, kind of in response to what their local community 
wants. But the programs that you're talking about are not 
supported by the COPS Office.
    Mr. Polis. And again, given that building trust in the 
community is a critical part of community policing, would you 
say that it might, in fact, cause a reason for distrust, if, in 
fact, members of the community who are undocumented feel that 
they might be deported by police officers?
    Mr. Melekian. I certainly think it can have that effect, if 
there's nothing going on to sort of offset it.
    Mr. Polis. Thank you. I yield back.
    Mr. Gowdy. I thank the gentleman from Colorado.
    The gentleman from Michigan asked to be recognized out of 
order, and is.
    Mr. Conyers. Thank you very much.
    We have here a former attorney general, a former Federal 
prosecutor, a former sheriff, and yourself. This is a 
concentration of law enforcement experience that we don't 
always get at these hearings. And I wanted to ask you about a 
question that the Chairman mentioned in terms of his comments. 
And that is the question of over-incarceration. We in this 
country put more people in prisons for longer periods of time 
than any other country on earth. Are you prepared to give me 
your opinion about that now? Let me ask you to respond to that, 
because it is a subject matter that is drawing increasing 
attention on the Judiciary Committee.
    Mr. Melekian. I think it is important topic for a number of 
reasons. Not only the almost philosophical question of whether 
too many people are being incarcerated, but what you are seeing 
across the country now is an economic impact, requiring States 
to reduce their prison populations, and sending those released 
prisoners back to local communities, which may or may not be 
prepared to absorb them.
    One of the jurisdictions, for example, that we funded with 
hiring funds last year was specifically one of the community 
problems that they took on, was this issue of reentry, and how 
to deal with those folks that are coming back and try to ensure 
their success. The recidivism rate in California, and I don't 
think California is unique from across the country, was roughly 
70 percent, which means that whatever savings that were being 
generated by releasing people from prison are, in effect, 
negated, unless we can find some way to effectively deal with 
them. So I think it is an important issue, and it is one the 
COPS Office is very focused on.
    Mr. Gowdy. Thank the gentleman from Michigan.
    Just as a point of clarification, I think I asked about 
over-criminalization and over-federalization of crime. I don't 
want any of my former colleagues to think that I am being 
disingenuous in now being concerned with over-incarceration 
since I have dedicated part of my life to making sure that 
happens.
    With that, on behalf of all of us we want to thank you for 
your service in law enforcement.
    Yes. The gentlelady from Florida would like to be 
recognized out of order.
    Mrs. Adams. Thank you, Mr. Chairman.
    Just a couple of quick things. I know that you said local 
governments are struggling with their agencies, because of the 
cost of what has been happening in the economy. Has it been 
brought to your attention that some of the regulations that are 
being passed on by the Federal Government to these cities and 
counties, the costs of those regulations are causing them to 
have to reduce in other areas, and that reduction is within the 
public safety arena?
    Mr. Melekian. I have not heard that directly, but I know 
that there are concerns sort of in the aggregate about various 
mandated costs of local government, which clearly spill over to 
funding public safety.
    Mrs. Adams. Would it surprise you that I was told by one 
city that if they had to comply, the costs would cause them to 
have to basically shut down their whole law enforcement agency?
    Mr. Melekian. No, it wouldn't, because one of the phenomena 
we are seeing from around the country is this issue of agencies 
closing for a variety of reasons. In meetings with the National 
Sheriffs Association, for example, they are very concerned 
about the fact about the number of cities, particularly in the 
western United States, that are simply closing their doors and 
turning law enforcement responsibility back to the sheriff. In 
other places we're dealing with, we're dealing with contracting 
and other issues. So, that issue of police departments going 
out of business for a variety of reasons is significant.
    Mrs. Adams. And the regulation cost is one of those that 
you have heard of, also.
    Mr. Melekian. Not directly, but I am aware that that is a 
concern.
    Mrs. Adams. And the other thing you mentioned, real 
quickly, you mentioned reentry programs. And since I was sent 
to look at some reentry programs, because of my law enforcement 
background, are you monitoring these programs, and how they are 
conducted? Because one of the things that I saw at one of these 
programs was the fact that the person who was out and going 
through this reentry program had no job, but had a cell phone, 
a new car, and lots of gold around his neck, and was receiving 
lots of phone calls and text messages while he was being spoken 
to during this meeting with the people who were overseeing his 
reentry. Yet, he made one comment, which I thought was 
interesting, about the fight in line wasn't his fault and 
because he smacked that woman, really it was her fault. And 
yet, they let him walk back out the door instead of maybe 
having him reevaluated. Who has responsibility to oversee these 
programs and ensure that the public is safe?
    Mr. Melekian. We monitor the programs where we have 
provided funding for, which, as I mentioned, at least, last 
year, although I really expect that number to go up this year, 
there was only one agency that selected reentry as a problem. 
So we do monitor what they're doing, because we hear the same 
stories that you do about that kind of thing.
    Quite honestly, I think that the nature of reentry and how 
it is being handled is casting a very wide net, and I think it 
gets handled in different ways in different places. The impact, 
particularly in California, is going to be significant, and it 
will be interesting to see what the 2012 grant applications 
look like this year, to see whether the number of agencies 
requesting funding for reentry programs increases.
    Mrs. Adams. And when you are looking at all the numbers as 
you evaluate these programs, and where the funding is going for 
these programs, are you also evaluating the reoffending numbers 
and the crime rates as they appear, once these programs are in 
place?
    Mr. Melekian. We certainly try to coordinate with the 
Bureau of Justice Assistance who tracks that.
    Mrs. Adams. Could you let us know whether or not someone is 
tracking that information and keeping it accurate?
    Mr. Melekian. I will get back to you on that.
    Mrs. Adams. Thank you. I yield back.
    Mr. Gowdy. Thank the gentlelady from Florida.
    The Chair will now recognize the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. I thank the Chair and the Ranking Member. 
I thank the witness for his presence, and also for his service 
as a law enforcement officer. You may have come across, in your 
experience, Chief Lee P. Brown, who served as head of the 
Chiefs Association, serves as the police chief commissioner in 
New York, Atlanta, and then we were fortunate to get him both 
as a chief of police, but also as a mayor of the City of 
Houston.
    And he utilized something that I think is a vital tool, and 
that is the community-oriented policing, which I, frankly, 
believe the COPS program sort of modifies. It helps ensure that 
there are law enforcement officers available.
    So my first question is, probably you've answered it, but I 
am a supporter of the COPS program, and my question to you is 
the ability to truly work the COPS program within the budget 
framework, or with additional cuts that may come to the 
program, what dilemma would you be placed in?
    Mr. Melekian. The dilemma, if that is what it is, is really 
a recognizing of how do we help the police departments and the 
sheriffs' departments across the country to sort of adjust to 
this new reality that they are in, and that because, as I 
mentioned earlier, under the current funding levels, 90 percent 
of the agencies that apply for COPS grants are not getting 
funded. And however we slice that pie up, 90 percent of those 
agencies are not getting funded.
    So, we have to look to our community policing development 
program, and we have to look to our training and technical 
assistance programs, to see if we can provide them assistance 
other than the hiring of personnel.
    I mentioned a couple of programs like the National Network 
of Safe Cities. There are a number of these kind of efforts, 
where different agencies are beginning the process of trying to 
share information, share best practices about how they are 
accommodating themselves to the new reality.
    Ms. Jackson Lee. The COPS programs that are funded, I'll 
say Houston, for example, that really wants this funding, we 
are a big city, people call 911 in the middle of the night, how 
does the COPS program help to ensure that emergency services 
are continued, that those emergency responses are answered?
    Mr. Melekian. We try to ensure that, particularly those 
agencies, and Houston has been a grant recipient for 2 of the 
last 3 years, because of the issues that you identified, our 
focus is making sure that those officers, whatever the problem 
was, whatever the community problem was that the jurisdiction 
said it wanted to do, that we make sure that that is what they 
are doing.
    Our belief is, and there is a lot of research out there to 
suggest, and I think it is going to get more interesting over 
the next couple of years, that crime is actually very narrowly 
focused to individuals and narrowly focused to place. And if we 
can work with jurisdictions to help them utilize those COPS 
resources, to sort of focus on both of those things, our hope 
is that it will bring the crime rate down, and it will bring 
the demand down on the 911 system.
    Ms. Jackson Lee. Do you think that we should encourage more 
partnerships in theory and practice with the COPS program, and 
a focus on community-oriented policing?
    Mr. Melekian. I think community policing, particularly in 
this environment, is going to become more critical and not less 
critical. It was a different reality when, if you wanted to 
have a school outreach program, if you wanted to do a foot 
patrol, you simply added personnel, and whether those personnel 
were funded by the Federal Government for some limited period 
of time, or whether they were locally funded, you could do 
that. In today's environment, you can't. You have to have a 
stronger relationship with the business owners in the 
neighborhood, with the residents in the neighborhood, with the 
community groups in the neighborhood, and there has to be an 
individual relationship about between the police and the 
members of the community. That is community policing in its 
essence, and that is what we are trying to drive.
    Ms. Jackson Lee. Can I follow up with this question? I 
introduced legislation dealing with bullying prevention, the 
reauthorization of Juvenile Accountability Block Grant. It is 
not under your jurisdiction, but here is the question that I 
have.
    Many times parents in this tragic incident that happened in 
the last 2 days will be baffled. Where were the police? Why 
didn't we have someone there? Can you just, from policing 
perspectives, speak to this idea that intervention, whether it 
is community oriented policing, whether it is intervention, or 
best practices, or preventing bullying, really helps in a 
holistic idea of safety for the community?
    Mr. Gowdy. You may answer the question, Director Melekian.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Melekian. Thank you, sir.
    As I mentioned earlier, when I was describing my 
experiences, I think there are the three parts, there are three 
tracks of things that have to occur to have a successful 
violence reduction program, and each one of them is tied to 
community policing.
    There needs to be an after-school program, so that kids 
have something to do. It isn't just something to do. It is also 
about forming a relationship and an impression of what a local 
law enforcement officer is.
    The intervention piece is the kid that gets in trouble for 
the first time, but there are all kinds of studies that suggest 
that there's only a small percentage of those kids that are 
going to go on to cause a lot of trouble, if you can identify 
them, and work with them. Places that have done them have had 
great success.
    And if your enforcement efforts can focus on individuals, 
rather than broad neighborhoods, so that you don't fall into 
the trap of widening the gap between local police and the 
communities they serve, if you can manage to keep it on an 
individual level, each one of those pieces is a critical 
community policing piece that can contribute to violence 
reduction. And I specifically include the issue of school 
police in a positive constructive way in that discussion.
    Ms. Jackson Lee. Thank you. Thank you. I yield back.
    Mr. Gowdy. I thank the gentlelady from Texas.
    Director Melekian, again on behalf of all of us, we want to 
thank you for your service to our country, for your service to 
law enforcement, and your service in your current capacity.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witness, which we will forward and ask the witness to respond 
as promptly as he can, so his answers may be made a part of the 
record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    With that, this hearing is adjourned.
    [Whereupon, at 11:14 a.m., the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Report from the Office of Community Oriented Policing Services (COPS)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Response to Post-Hearing Questions from the Honorable Bernard K. 
  Melekian, Director, Office of Community Oriented Policing Services, 
                       U.S. Department of Justice

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
